         estimony

                     STATEMENT OF
                  ROBERT J. LIEBERMAN
               DEPUTY INSPECTOR GENERAL
                DEPARTMENT OF DEFENSE
                        TO THE
          SUBCOMMITTEE ON EMERGING THREATS
                    AND CAPABILITIES
           SENATE ARMED SERVICES COMMITTEE
                           ON
              NATIONAL GUARD WEAPONS OF
         MASS DESTRUCTION – CIVIL SUPPORT TEAMS



Report No. D-2001-113           DELIVERED: May 1, 2001



             Office of the Inspector General
                 Department of Defense
Mr. Chairman and Members of the Committee:

I appreciate the opportunity to be here today to discuss the
Department of Defense effort to bolster this nation's homeland
defense by fielding Weapons of Mass Destruction - Civil Support
Teams (WMD-CSTs). My testimony will focus primarily on the
results of my office's audit last year of WMD-CST program
management, which are presented in our report of January 31,
2001.

Audit Background and Timing
Chemical and biological defense has been an audit coverage
emphasis area for us throughout the past decade, as the threats
posed by these and other so-called asymmetrical weapons received
increased recognition and the Department of Defense reacted with
numerous research, acquisition and organizational initiatives.
Before the WMD-CST audit, our reviews focused generally on the
warfighters' preparedness to operate in contaminated
environments on the battlefield.

Presidential Decision Directive 39, issued in June 1995, and the
Defense Against Weapons of Mass Destruction Act of 1996 directed
various measures to enhance homeland defense against terrorists
armed with weapons of mass destruction. A DoD Tiger Team
subsequently recommended establishing National Guard teams to
assist the emergency first responders, such as local fire
departments and hazardous material response units, in case of
known or suspected WMD incidents. The focus of these teams,
which were initially termed rapid assessment, identification and
detection units, was to be on identifying what WMD material or
agent was involved. The Tiger Team estimated that an initial
complement of 10 teams could be operational by FY 2002. In
January 1998, the Deputy Secretary of Defense tasked the Army to
establish the Consequence Management Program Integration Office
(COMPIO) to implement the Tiger Team recommendations. COMPIO
adopted a very aggressive schedule, planning to field 10 teams
by January 2000.

The National Defense Authorization Act for FY 1999 mandated
that:

     A reserve component rapid assessment element team
     and any Reserve assigned to such a team, may not
     be used to respond to an emergency...unless...
     the team, or that Reserve, possesses the requisite
     skills, training and equipment to be proficient in
     all mission requirements.
                                                               2



In addition, the Act required that the proficiency of each team
be certified by the Secretary of Defense. Congress did not
specify a schedule for WMD-CST certification and fielding, but
authorized an additional 17 teams in FY 2000 and 5 more in FY
2001, for a total of 32.

Recognizing the growing DoD and congressional interest in
homeland defense, we decided in December 1999 to review the WMD-
CST program. We briefed National Guard, Department of the Army
and Office of the Secretary of Defense officials on the results
of our review frequently during calendar year 2000. Most of the
fieldwork was completed by September 2000.

Audit Results
It was apparent from the outset of the audit that the
planned January 2000 initial operational capability date had
been unrealistic; the WMD-CSTs were not operationally ready and
the program lacked good management controls. On the other hand,
we were highly impressed by the professionalism and dedication
of the leaders and members of the initial 10 WMD-CSTs. The
program's slippage and cost growth are in no way attributable to
the 10 teams. Those problems stem from what we candidly
characterized as ineffective management by COMPIO and inadequate
oversight by the Department before the audit brought numerous
issues to their attention last summer.

In its initial stages, the WMD-CST program is basically a system
acquisition program requiring intensive upfront planning because
it supports a new mission. Until recently, however, it was not
managed within the Army acquisition program structure or by
trained acquisition corps personnel. Instead, COMPIO operated
as an essentially autonomous entity with no effective oversight
to ensure that sound acquisition practices were followed.
COMPIO regularly bypassed or inadequately coordinated with DoD
and Army centers of expertise in acquisition, logistics,
testing, doctrine, training, medicine, communications and
chemical/biological defense. The result was flawed acquisition
and sustainment planning. Our report discusses the many
deficiencies evident during the audit in the WMD-CST program.
For illustrative purposes, I will mention just a few examples.

First, doctrine for employing WMD-CSTs was incomplete and
coordination between COMPIO and the Joint Forces Command and
Army doctrine developers was very poor. Absence of approved
doctrine obviously creates considerable risk of premature or
                                                             3


otherwise faulty decisions on training, equipment, manning and
mission readiness certification.

Second, coordination with the Federal law enforcement community,
a vital player in Consequence Management, needed improvement to
ensure that WMD-CST mission definition and doctrine did not
conflict with law enforcement agencies' plans and prerogatives.

Third, undue reliance was placed on external evaluations
(EXEVALs), a unit level training event, to demonstrate the
mission readiness of WMD-CSTs. What was actually needed was a
rigorous program of operational test and evaluation. Not only
do EXEVALs lack the discipline and reliability of formal
testing, but every WMD-CST lacked key personnel, equipment, or
both when the EXEVALs were staged. For example, none of the
teams had received the Mobile Analytical Laboratory System
(MALS) van, 9 of 10 teams lacked communications reachback
capability, and all of them had personal protective equipment
shortages. WMD-CST personnel identified numerous issues to us
that normally would have been identified in realistic testing
and resolved.

Fourth, training programs and materials were inadequate. Again,
lack of approved doctrine and vague mission definition were
factors.

Fifth, WMD-CST equipment chosen by COMPIO was generally
different from standard items already in military inventories.
We saw no compelling reason for COMPIO to buy nonstandard
equipment that considerably complicates the logistics support
requirements for WMD-CSTs, as well as posing testing and
training issues.

Many of the problems identified by the audit could be considered
symptoms of an immature acquisition program that was not ready
for a full-scale production or deployment decision. Although
the WMD-CST program was not managed or controlled using
acquisition milestone criteria, the certification requirement in
the National Defense Authorization Act for FY 1999 provided
equivalent "check and balance." Of course, certifications are
effective controls only when certification criteria are
meaningful. We reported, and the Office of the Secretary of
Defense agreed, that the certification criteria developed by the
Army for WMD-CSTs were considerably less rigorous than Congress
intended and simply not prudent from the standpoint of soldier
safety and DoD credibility.
                                                               4


Department of Defense Corrective Action
The Office of the Secretary of Defense agreed with our findings
and took action to implement our recommendations, which were:

     •   to disestablish COMPIO;
     •   to reassign WMD-CST program management responsibilities
         to the Assistant to the Secretary of Defense for Civil
         Support, the Principal Deputy Assistant Secretary of
         Defense (Reserve Affairs) and the Deputy Assistant to the
         Secretary of Defense for Chemical and Biological Defense
         Programs;
     •   to issue Office of the Secretary of Defense guidance
         prescribing certification standards and delineating the
         specific missions, duties and responsibilities of the
         WMD-CSTs;
     •   to ensure that WMD-CST certifications are based on that
         guidance;
     •   to coordinate at the Office of the Secretary of Defense
         level with the Federal Bureau of Investigation on WMD-CST
         roles and missions; and
     •   to conduct a thorough program review of the WMD-CST
         initiative, including operational concept, doctrine,
         equipment, sustainment, personnel assignments and
         rotations, funding and the certification process.

We have been gratified by the responsive actions taken over the
past several months in response to the issues raised by the
audit. I can report to you today that implementation of all of
our recommendations is either complete or ongoing. My staff and
I have been working closely with senior Office of the Secretary
of Defense, Army and National Guard Bureau officials to move
those agreed-upon actions forward. The increased involvement of
the National Guard Bureau in this program is particularly
welcome. In summary, I commend the Department for taking the
audit findings seriously and undertaking the thorough review
that we suggested to get this program back on track.

The full text of our Report No. D-2001-043, Management of
National Guard Weapons of Mass Destruction-Civil Support Teams,
January 31, 2001, is available on the web at www.dodig.osd.mil.
Again, thank you for the opportunity to participate in this
important hearing. This concludes my statement.
